           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   SELF-EMPLOYMENT INCOME
    EARNINGS SUSPENSE FILE

    June 2006   A-03-05-25038




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY
MEMORANDUM

Date:   June 27, 2006                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Self-Employment Income Earnings Suspense File (A-03-05-25038)



        OBJECTIVE

        Our objective was to identify patterns of errors and irregularities in the self-employment
        income (SEI) posted to the Earnings Suspense File (ESF).

        BACKGROUND
        Earnings are reported to the Social Security Administration (SSA) in two forms—wages
        from employers or SEI from the Internal Revenue Service (IRS). Wages are reported
        on a Wage and Tax Statement (Form W-2). SEI is reported by individuals on their U.S.
        Individual Income Tax Return (Form 1040) and an attached Schedule SE (Self-
        Employment Tax). Approximately 5 percent of all earnings reported to SSA relate to
        SEI.

        Section 1401 of the Internal Revenue Code requires the IRS to impose the Self-
        Employment Contributions Act (SECA) tax on self-employment income. The SECA tax
        is equivalent to the Federal Insurance Contributions Act (FICA) tax paid by both
        employers and employees. Like FICA, SECA includes contributions for both the Social
        Security and Medicare programs. SSA is required to maintain an accurate record of
        earnings information received from IRS and administer benefit programs based on this
        information.1

        The IRS electronically transmits the SEI and related adjustments to SSA on a weekly
        basis. Once received, the data is matched with SSA’s Numident File—the repository for
        all issued Social Security numbers (SSN)—to verify each individual’s name and SSN
        and post the earnings to the individual’s Master Earnings File (MEF)2 record. Income



        1
         Social Security Act § 205(c)(2)(A), 42 U.S.C. § 405(c)(2)(A) (2005).
        2
         The MEF contains all earnings data reported by self-employed individuals and employers. These data
        are used to calculate the Social Security benefits due an individual with an earnings record.
Page 2 - The Commissioner

items with an invalid name and/or SSN combination, as well as other questionable
items, are not posted to an individual’s MEF but instead recorded in the ESF.3

INDIVIDUAL TAXPAYER IDENTIFICATION NUMBERS

The Individual Taxpayer Identification Number (ITIN) is a 9-digit Federal tax processing
number issued by the IRS. While an ITIN may look similar to a SSN, the first digit in an
ITIN is the number 9 and the fourth digit is the number 7 or 8. SSA does not issue
SSNs in the “900” series. The IRS issues ITINs to foreign nationals and other
individuals who have Federal tax reporting or filing requirements, but who do not have,
and are not eligible to obtain, an SSN from SSA. An ITIN is not valid identification
outside the tax system. The IRS has issued more than 7 million ITINs since 1996, the
year the Agency began issuing these numbers.

RESULTS OF REVIEW
Our review of the SEI ESF for Tax Years (TY) 1951 through 2002 determined that
approximately $11 billion in earnings and 2.1 million earnings items have accumulated
over this period. Reported earnings are posted to the SEI ESF for a number of reasons,
including (1) name/SSN mismatch, (2) death of an earner, (3) young child’s earnings,
and (4) disclaimed earnings. Furthermore, in recent years many of these suspended
earnings are reported with SSNs having characteristics similar to IRS’ ITINs. We
verified a sample of these SSNs with ITIN characteristics against IRS data. Based on
results from this verification, we estimate that the SEI ESF for TYs 1951 through 2002
contains about 241,600 earnings items reported with SSNs that are in fact valid ITINs
issued by the IRS to the individual tax filers. In addition, the majority of these earners
had work histories that would qualify them for work credit within SSA’s systems if they
obtained a valid SSN and met other SSA requirements for coverage. It is possible that
some of these individuals possess a valid SSN and failed to notify SSA that they worked
under an ITIN. If this is the case, these individuals (1) will lack work credits related to
their earnings and/or (2) may receive incorrect SSA benefit amounts. Improved
correspondence with the earner and greater access to the IRS’ ITIN data could assist
SSA in resolving some of these suspended earnings items.

SIZE AND COMPOSITION OF THE ESF

As of October 2004, the SEI ESF had accumulated about $11 billion in earnings and
approximately 2.1 million earnings items for TYs 1951 through 2002 that could not be
posted to individuals’ earnings records. On average, less than 1 percent of reported
SEI was posted to the SEI ESF annually. Approximately 814,000 earnings items in this
file, or about 39 percent of the file, represent accumulation over TYs 1991 through 2002
(see Table 1).


3
  Our report focuses on SEI reported by individuals and not wages. SSA maintains a separate ESF file
for suspended wages (see Appendix C).
Page 3 - The Commissioner

                     Table 1: SEI ESF Income and Items (TYs 1951-2002)
                                            Total Suspended          Total Suspended
            Tax Years                            Income               Income Items
           1951 – 1960                         $440,007,042                234,035
           1961 – 1970                          623,653,742                243,854
           1971 – 1980                        1,502,011,999                358,610
           1981 – 1990                        2,483,128,083                421,651
           1991 – 2000                        4,089,601,673                588,606
           2001 – 2002                        1,849,404,364                225,706
              Total                         $10,987,806,903             2,072,462

Contents of the Earnings Suspense File

Reported earnings are posted to the SEI ESF for a number of reasons, including
(1) name/SSN mismatch, (2) death of an earner, (3) young child’s earnings, and
(4) disclaimed earnings. We reviewed the SEI ESF items in the TY 1951-2002 file and
determined that approximately 97 percent of the items in the ESF relates to invalid
name/SSN combinations. The remaining 3 percent relate to valid name/SSN
combinations but the earnings were in question. In Figure 1, we provide a breakout of
the contents of the income items in the ESF for TYs 1951 through 2002.


                      Figure 1: Contents of the Self-Employment Income
                           Earnings Suspense File (TYs 1951-2002)

                                   SSN all Zeros
                                       22%


                                 Special
                                Indicator
                                   3%


                                                                     SSN/Name
                                                                     Mismatch
                                                                       52%
                              SSN in "900"
                                Series
                                 23%




The name/SSN mismatches represent about 97 percent of the file and relate to
(1) items with SSNs consisting of all zeros (22 percent);4 (2) items reported with SSNs
in the “900” series (23 percent);5 and (3) other name/SSN mismatches (52 percent).
Valid names/SSNs represent 3 percent of the file and relate to items with special

4
    The IRS reported the item with an SSN consisting of all zeros.
5
    SSA does not issue SSNs in the “900” series.
Page 4 - The Commissioner

indicators: Earnings after Death, Self-Employment Earnings Discrepancies, and Young
Children’s Earnings Record.6

Tax Year 2002 Trends

We also reviewed the TY 2002 SEI ESF to understand more recent trends. When we
compare the TY 2002 ESF trends with the overall trends in the TYs 1951–2002 ESF,
we found the “900” series SSNs represent a much larger portion of the problem—
72 percent of the suspended items (see Figure 2). This discrepancy may relate to
individuals using IRS-issued ITINs rather than SSNs to report earnings. We found that
98 percent of the “900” series SSNs in our TY 2002 SEI ESF file were consistent with
the IRS’ ITIN numbering criteria, which represents 71 percent of all the SSNs in the
TY 2002 SEI ESF.7 Moreover, we found that about 91 percent of the “900” series
numbers that resemble ITINs were posted to the SEI ESF after 1995. The IRS began
issuing ITINs in July 1996.


                     Figure 2: Contents of the Self-Employment Income
                              Earnings Suspense File (TY 2002)


                                SSN/Name
                                Mismatch
                                  20%




                         SSN All Zeros
                                                                       SSN in "900"
                             3%
                                                                         Series
                       Special Indicator                                  72%
                             5%




INDIVIDUAL TAXPAYER IDENTIFICATION NUMBERS

Our analysis has determined that the approximately 77 percent of all reported SSNs
with ITIN characteristics represent IRS-issued ITINs. We reviewed the earnings trends
related to these reported SSNs with ITIN characteristics and found work histories
ranged from 1 to 10 years. Furthermore, the vast majority of these earnings would
qualify for a minimum of one quarter of coverage if the individual was issued a valid
SSN. It is possible that some of these individuals possess a valid SSN and failed to

6
 See Appendix E for more information on the special indicators.
7
 The ITIN number always begins with a “9” and has a “7” or an “8” as the fourth digit (example:
9XX-7X-XXXX).
Page 5 - The Commissioner

notify SSA that they worked under an ITIN. If this is the case, these individuals (1) will
lack work credits related to their earnings and/or (2) may receive incorrect SSA benefit
amounts. Improved correspondence with the earner and greater access to ITIN data
could assist SSA in resolving some of these suspended earnings items.

Unresolved Earnings Items

We verified 275 reported SSNs with ITIN characteristics against the IRS’ list of issued
ITINs.8 The 275 sample items were pulled from a population of 311,874 SEI ESF items
for TYs 1951 through 2002 that were reported with SSNs that met the IRS’ numbering
criteria for an ITIN. We found that 213 of the 275 reported SSNs (about 77 percent)
were in fact valid9 ITINs issued by the IRS. Based on these results, we estimate that
the SEI ESF contains about 241,600 items that are reported under ITINs (see Appendix
D).10 This represents approximately 12 percent of all suspended items in the SEI ESF
from TYs 1951 to 2002.

Our verification demonstrates that the issuance of ITINs has led to an increase in the
size of the SEI ESF. In December 2003, the IRS instituted tighter controls over the
issuance of ITINs. According to the Commissioner of IRS,11 an applicant is now
required to file the Application for an IRS Individual Taxpayer Identification Number
(Form W-7)12 with a completed tax return for which the ITIN is necessary. The
Commissioner noted that associating the issuance of the ITIN with the filing of a tax
return ensures that the number is properly used for tax administration. Furthermore, the
IRS has decreased the number of acceptable types of documents used to establish
identity and foreign status when an individual applies for an ITIN. Finally, in response to
the confusion between ITIN cards and Social Security cards, the IRS no longer issues
an ITIN card but rather sends a letter to taxpayers providing them with their number.13

Noncitizens may be using the ITIN to report SEI on their tax forms because the IRS
allows them to do so. In our review of IRS tax guidance14 we found that the IRS
instructs noncitizens to use either an SSN or an ITIN when paying self-employment
taxes. While the publication also warns the reader that the ITIN does not entitle the
8
  These potential ITINs were verified at the aggregate level without identifying any specific taxpayers by
the Treasury Inspector General for Tax Administration (TIGTA).
9
  We provided TIGTA the name and reported SSN for the 275 sample items that met the IRS’ numbering
criteria for an ITIN. TIGTA determined the ITIN to be valid based on the match of the name and “reported
SSN” to the IRS’ ITIN records.
10
   We were not able to specifically determine which SSNs were ITINs since Section 6103 of the Internal
Revenue Code (26 U.S.C. § 6103) limits the amount of taxpayer information that can be disclosed.
11
   Individual Taxpayer Identification Numbers and Social Security Number Matching, Prepared Testimony
of Mark E. Everson, Commissioner of Internal Revenue, before the House Ways and Means Subcommittee
on Oversight and Subcommittee on Social Security, March 10, 2004.
12
   See Appendix F for a copy of the Form W-7.
13
   These IRS changes may impact the number of ITINs going into the SEI ESF in the future. However,
we could not make that determination in our audit since we reviewed the suspended earnings through
TY 2002.
14
   See IRS Publication 334, Tax Guide for Small Business (2005) and “How to Pay Self-Employment Tax”
on the IRS website at www.irs.gov/businesses/small/ (February 2006).
Page 6 - The Commissioner

number holder to Social Security benefits, the instructions do not clearly explain that
any earnings reported under an ITIN cannot be credited to the individual’s earnings
record with the SSA—that is, the earnings will be suspended when reported to SSA—
until the individual obtains a valid SSN and can prove ownership of the earnings. As a
result, while one Federal agency, the IRS, is instructing the taxpayer to use the ITIN,
another Federal agency, SSA, will eventually send this same taxpayer a notice15
informing the individual that his earnings cannot be properly posted. This difference in
policy is likely to cause confusion among taxpayers.

Earnings Trends Among Potential ITINs

We reviewed the earnings trends related to these 275 reported SSNs with ITIN
characteristics and found that approximately 61 percent of the SSNs and about
91 percent of the associated earnings related to a work history of 2 or more years (see
Table 2). Work histories under these potential ITINs ranged from 1 to 10 years. For
example, one individual with a potential ITIN reported about $176,300 of SEI over a
6-year period from 1997 to 2002, or an average of $29,400 annually.

                      Table 2: Earnings Trends Among 275 Potential ITINs
      Number of                                                   Earnings       Average Annual
      Years with            Potential        Percent of 275    Associated with    Earnings Per
       Earnings              ITINs           Potential ITINs   Potential ITINs    Potential ITIN2
          01                    2                  1%                      $0                 $0
           1                  104                 38 %              $556,600             $5,352
           2                   57                 21 %              $835,443             $7,328
           3                   49                 18 %            $1,314,111             $8,940
           4                   24                  9%              $559,026              $5,823
           5                   19                  7%               $946,823             $9,967
           6                   13                  5%              $758,482              $9,724
           7                    6                  2%               $634,245            $15,101
          10                    1                  0%               $297,347            $29,735
        Totals                275               100 %3            $5,902,077      $21,462 (avg.)
Note 1: In some cases the reported earnings were later reversed. Therefore, we are not showing any
earnings history.
Note 2: Average annual earnings were based on total earnings divided by both (1) the number of
individuals with earnings and (2) the number of years with reported earnings.
Note 3: Numbers do not add due to rounding.




15
     We discuss this issue later in the report.
Page 7 - The Commissioner

We also determined that 262 of the 275 potential ITINs (95 percent)16 were associated
with owners who would qualify for a minimum of one quarter of coverage.17 Using these
results, we believe that the SEI ESF potentially contains earnings credits related to
approximately 230,100 individuals who have worked and may still be working under a
valid ITIN.18 If these individuals also posses a valid SSN and fail to notify SSA that they
worked under an ITIN, then the Agency cannot properly post these earnings19 and the
individuals:

•    will not obtain work credits for their earnings, which may impact future benefits; and
•    may not be receiving the right benefit amount since missing earnings may increase
     or decrease those benefits.20

As shown in Figure 3, our review of the approximately 311,900 potential ITINs in the
SEI ESF indicates that these numbers have been an increasing portion of the
suspended items from the mid-1990s forward.




16
   Thirteen of the potential ITINs did not qualify for a quarter of coverage because earnings related to two
of the potential ITINs were later reversed and earnings related to the other eleven cases did not have
sufficient earnings to qualify for one quarter of coverage.
17
   SSA provides Old-Age, Survivors and Disability Insurance (OASDI) benefits to individuals based on
their lifetime earnings reported under a valid SSN. These earnings determine whether an individual has
enough quarters of coverage, or work credits, for insured status. Social Security work credits are based
on an individual's total annual wages or self-employment income. An individual can earn up to four
credits each year. The amount needed for a credit changes from year to year. In 2002, for example, an
individual earned one credit for each $870 of wages or self-employment income. When an individual
earned $3,480, he or she had earned four credits for the year.
18
   While we estimate that 297,100 of the 311,874 potential ITINs had at least one quarter of coverage,
approximately 230,100 valid ITINs have at least one quarter of coverage (see Appendix D).
19
   We did find instances where it appears that individuals who worked under ITINs later obtained valid
SSNs and requested that SSA post their suspended earnings to their earnings record (see Appendix G).
20
   Under OASDI, the missing earnings could potentially increase the size of the benefit payment since
earnings are used to calculate work credits. Under the Supplemental Security Income program, the
missing earnings could potentially decrease the size of the payment since benefit amounts are reduced
for earnings.
Page 8 - The Commissioner



                          Figure 3: Growth of SEI ESF Earnings Items
                                                        (TYs 1990-2002)
                               120
                               100
             Number of Items
              (In Thousands)


                                80
                                60
                                40
                                20
                                 0
                                90

                                      91

                                            92

                                                  93

                                                        94

                                                              95

                                                                    96

                                                                          97

                                                                                98

                                                                                      99

                                                                                            00

                                                                                                  01

                                                                                                        02
                               19

                                     19

                                           19

                                                 19

                                                       19

                                                             19

                                                                   19

                                                                         19

                                                                               19

                                                                                     19

                                                                                           20

                                                                                                 20

                                                                                                       20
                                                                   Tax Years


                                    Potential ITINs          All Other Suspended Items



Improved Correspondence

SSA communicates with earners when their SEI is posted to the ESF. For example, the
Agency sends Decentralized Correspondence (DECOR) to each earner explaining how
their earnings cannot be resolved until a valid name and/or SSN is provided (see
Appendix E where we discuss the DECOR process). However, this notice does not
specifically mention that ITINs can be confused with SSNs (see Appendix H for a copy
of a DECOR notice), even though our audit shows that the majority of TY 2002
suspended SEI may, in fact, relate to ITINs.21 Additional language in the SEI DECOR
notice could make it clear to earners that the ITIN is not to be used for employment and
reported earnings cannot be used towards future benefits unless they are reported
under a valid SSN.

Greater Data Sharing

Learning more about the owner of the ITIN could assist SSA in developing more
efficient matching routines on reported earnings data and ensure the timely posting of
earnings to an individual’s account.22 For example, if SSA received the individual’s
information from the IRS Form W-723 the Agency could use this data to determine if an



21
   We have already noted that 71 percent of all TY 2002 suspended items were reported under a potential
ITIN, and we have further confirmed that approximately 77 percent of these potential ITINs are in fact
ITINs.
22
   This information could assist with both the SEI ESF and the wages ESF (see Appendix C). Our review
of the TY 2002 suspended items in the wages ESF found approximately 103,000 potential ITINs.
23
   The IRS Form W-7 requires the applicant to provide his or her full name, mailing address, date of birth,
country of birth, and country of citizenship. See Appendix F for a copy of the Form W-7.
Page 9 - The Commissioner

SSN was also issued to someone with that same name, date of birth, and place of
birth.24

Furthermore, we believe the sharing of such ITIN information between SSA and IRS is
consistent with each Agency’s mission since it will clarify efforts needed to ensure tax
laws are applied with "integrity and fairness to all" (per the Internal Revenue Service’s
mission statement)25 and that tax filers' Social Security benefits are based on accurate
information (per the Social Security Act).26 We also believe such sharing is consistent
with the agreement between SSA and the IRS, which calls for both agencies to "devise
ways each agency can help the other with name and SSN matching problems."27

CONCLUSION AND RECOMMENDATIONS
While SSA appears to be able to identify the owners for the vast majority of reported
SEI, suspended earnings cannot be resolved when individuals use ITINs to report their
earnings. Our audit shows that the use of ITINs to report earnings has grown in recent
years and SSA cannot determine if the ITIN owner also possesses a valid SSN. This
situation could increase the risk of individuals (1) not obtaining work credits for their
earnings and/or (2) not receiving the correct benefit amount.

We recommend SSA consider additional steps, which could potentially identify the
owners of suspended earnings, including:

1. Work with the IRS to resolve the inconsistent instructions provided to noncitizens
   relative to the appropriate tax identification number to be used for reporting SECA
   and Medicare taxes.

2. Update the language in the SEI DECOR notice to make it clear to individuals that
   earnings reported under an ITIN cannot be used for future SSA benefits until the
   individual obtains a valid SSN.

3. Discuss with the IRS the possibility of obtaining ITIN data in accordance with the
   SSA/IRS agreement. The ITIN information could be reviewed to determine whether
   the addition of this new information to SSA’s records results in (i) a reduction in the
   size of the SEI ESF and/or (ii) adjustments to SSA benefits.




24
   SSA could also request that applicants for a Social Security card inform the Agency if they have been
issued an ITIN. The current Application for a Social Security Card (Form SS-5) only asks if the applicant
had ever been issued another SSN. SSA could then use this ITIN information as another indicator in its
system to identify earnings that can be posted to an individual’s record.
25
   IRS Annual Performance Plan FY 2004, p. 4 (February 2003).
26
   Social Security Act § 205(c)(2)(A), 42 U.S.C. § 405(c)(2)(A) (2005).
27
   Agreement Between SSA and The IRS, p. 15 (August 1998).
Page 10 - The Commissioner

AGENCY COMMENTS

SSA agreed with recommendation 1, deferred action on recommendation 2 due to
pending immigration reform legislation, and disagreed with recommendation 3. In
reference to recommendation 3, SSA did not believe they would benefit from obtaining
ITIN data from the IRS. SSA stated that if an individual does not have an SSN, such
ITIN information would be rendered useless because it would be impossible to remove
the individual’s self-employment income (or wages) from the ESF since, without an
SSN, there would be no valid record to which the earnings could be credited. Further,
SSA stated that alternatively, individuals previously assigned an ITIN who subsequently
become eligible for and obtain an SSN will learn from their annual Social Security
Statement that earnings are not posted to their records and the potential effects on
benefits of failing to properly report or to correct earnings. In addition, the Social
Security Statement currently provides instructions on how to resolve such earnings
discrepancies. The full text of SSA’s comments is included in Appendix J.

OIG RESPONSE

We appreciate the Agency’s response to our recommendations as well as the
assistance of SSA staff throughout this review. We disagree, however, with SSA’s point
that SSA would not benefit from obtaining ITIN data from the IRS. We believe that
having additional information (i.e., date of birth, place of birth, etc.) related to individuals
who report earnings under ITINs could be useful to SSA in identifying the potential
owners of these earnings by comparing this information to the Numident and later
determining adjustments to earnings records and/or benefit payments. Further, we
believe it is possible that an individual can have a valid SSN but consistently report
earnings to the IRS under an ITIN, and, therefore, not receive a Social Security
Statement since the IRS would not have an address for the issued SSN.28 Finally, we
also believe that SSA could use the additional ITIN information provided by the IRS to
monitor the role of ITINs on the SEI ESF over time.




                                                          S
                                                          Patrick P. O’Carroll, Jr.




28
     SSA obtains the addresses for the Social Security Statements from the IRS.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Two Earnings Suspense Files

APPENDIX D – Sample Methodology

APPENDIX E – Self-Employment Income Earnings Suspense File Reinstatements

APPENDIX F – Application for IRS Individual Taxpayer Identification Number

APPENDIX G – Reinstated Earnings Items with Potential Individual Taxpayer
             Identification Numbers

APPENDIX H – Decentralized Correspondence for Self-Employed Individuals

APPENDIX I – Prior Office of the Inspector General Reports

APPENDIX J – Agency Comments and OIG Response

APPENDIX K – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
DECOR       Decentralized Correspondence
DoB         Date of Birth
EAD         Earnings After Death
ESF         Earnings Suspense File
FICA        Federal Insurance Contributions Act
IRS         Internal Revenue Service
ITIN        Individual Taxpayer Identification Number
MEF         Master Earnings File
OASDI       Old-Age, Survivors and Disability Insurance
OIG         Office of the Inspector General
SECA        Self-Employment Contributions Act
SEI         Self-Employment Income
SSA         Social Security Administration
SSN         Social Security Number
TIGTA       Treasury Inspector General for Tax Administration
TY          Tax Year
YCER        Young Children’s Earnings Record
Forms
Form 1040   Individual Income Tax Return
Form W-2    Wage and Tax Statement
Form W-7    Application for IRS Individual Taxpayer Identification Number
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed polices and procedures regarding self-employment income (SEI) and the
    Earnings Suspense File (ESF).

•   Reviewed prior audit reports on the ESF and the accuracy of earnings posted.

•   Reviewed earlier management reports, reviews, and/or testimony completed on the
    Individual Taxpayer Identification Number (ITIN).

•   Met with Social Security Administration (SSA) staff to gain an understanding of
    SSA’s SEI ESF records maintenance process.

•   Obtained from SSA the ESF for SEI suspended earnings and earnings items as of
    October 2004. We analyzed this file to determine patterns in the file. We also
    extracted, summarized, and tested earnings reported under a potential ITIN.

•   Obtained from SSA the SEI Reinstatements File for reinstated earnings items as of
    October 2004. We analyzed this information to determine the number of items
    reinstated from the SEI ESF to the Master Earnings File and the reason for the
    reinstatements.

•   Met with staff from the Treasury Inspector General for Tax Administration (TIGTA) to
    gain an understanding of the Internal Revenue Services’ (IRS) processes for
    verification of tax filers’ name and reported SSN, and to gain an understanding of
    IRS’ ITIN policy.

•   Provided the Office of Audit at TIGTA with the name and reported SSN for
    275 randomly selected SEI ESF earnings items from the population of items
    reported with SSNs that met the IRS’ numbering criteria for an ITIN. These 275
    SSNs were reported to SSA between TYs 1951 and 2002. TIGTA verified whether
    the name and associated identification number on each record matched a name and
    associated ITIN within their system (see Appendix D for our projection results).

Our audit did not include an evaluation of SSA's internal controls over the SEI reporting
process. The purpose of our review was to review trends related to earnings that had
accumulated within the SEI ESF. We did not focus our efforts on the collection of
earnings data, nor did we attempt to establish the reliability or accuracy of such data. In
prior audits, we reviewed the completeness and accuracy of the ESF postings, and
tested the accuracy of ESF data reinstated to earnings records.


                                            B-1
The entity responsible for the maintenance of the ESF is the Office of Earnings,
Enumeration and Administrative Systems under the Deputy Commissioner for Systems.
Our work was conducted at the Philadelphia Audit Division, Philadelphia, Pennsylvania
between January 2005 and January 2006. We conducted our audit in accordance with
generally accepted government auditing standards.




                                         B-2
                                                                                Appendix C

Two Earnings Suspense Files
Title II of the Social Security Act requires that the Social Security Administration (SSA)
maintain the reported earnings records of individuals.1 SSA uses these reported
earnings to determine whether an individual is entitled to receive retirement, survivors,
disability and health insurance benefits and to calculate benefits. SSA validates the
names and Social Security numbers (SSN) on reported earnings against information in
its records. Earnings containing names and/or SSNs that do not match SSA’s records
cannot be posted to an individual’s earnings record in SSA's Master Earnings File
(MEF).2 Instead, these earnings are placed in SSA’s Earnings Suspense File (ESF)—a
repository for unmatched wages.

SSA maintains two ESFs—one for wages reported by employers and one for earnings
from self-employed individuals reported by the Internal Revenue Service. As of October
2004, the wages ESF had accumulated about $463 billion in wages and approximately
246 million wage items for Tax Years (TY) 1937 through 2002 that could not be posted
to individuals’ earnings records. In October 2004, the self-employment income (SEI)
ESF had accumulated about $11 billion in earnings and approximately 2.1 million
earnings items for TYs 1951 through 2002 that could not be posted to individuals’
earnings records.

During TY 2002, about $57 billion in earnings were posted to both ESFs:

    •   98 percent of the earnings, or $56.1 billion, related to suspended wages; and
    •   2 percent of the earnings, or $881 million, related to suspended SEI.




1
 Social Security Act § 205(c)(2)(A), 42 U.S.C. § 405(c)(2)(A) (2005).
2
 The MEF contains all earnings data reported by employers and self-employed individuals. The data is
used to calculate the Social Security benefits due an individual with an earnings record.
                                                                                    Appendix D

Sample Methodology
We verified 275 reported Social Security numbers (SSN) with Individual Taxpayer
Identification Number (ITIN)1 characteristics within the self-employment income (SEI)
Earnings Suspense File (ESF) for tax years (TY) 1951 through 20022 against the
Internal Revenue Service’s (IRS) list of issued ITINs.3 We found that 213 of the 275
reported SSNs (77 percent), reported to SSA between TYs 1951 and 2002, were in fact
valid ITINs issued by the IRS. Based on these results, we project that the SEI ESF
contains about 241,600 items that are reported under ITINs.4 We also determined that
individuals associated with 262 of the 275 potential ITINs (95 percent)5 could potentially
qualify for a minimum of one quarter of coverage6 if the individual obtained a valid SSN
and met other SSA requirements for coverage. Using these results, we believe that the
SEI ESF potentially contains earnings credits related to about 230,100 individuals who
have worked and may be currently working under ITINs.

                              Sample Results and Projections
    Population size                                                                               311,874
    Sample size                                                                                       275
                                  Attribute Projection 1
    Sample cases – number of suspended earnings reported under                                         213
    an ITIN
    Projection – number of suspended earnings reported under an                                   241,561
    ITIN in our population
    Projection lower limit                                                                        227,411
    Projection upper limit                                                                        254,313




1
  The ITIN is a 9-digit Federal tax processing number issued by the Internal Revenue Service.
2
  The 275 sample items were pulled from a population of 311,874 SEI ESF items for TYs 1951 through
2002 that were reported with SSNs that met the IRS’ numbering criteria for an ITIN.
3
  These potential ITINs were verified by the Treasury Inspector General for Tax Administration.
4
  We were not able to specifically determine which SSNs were ITINs since Section 6103 of the Internal
Revenue Code (26 U.S.C. § 6103) limits the amount of taxpayer information that can be disclosed.
5
  Thirteen of the potential ITINs did not qualify for a quarter of coverage because earnings related to 2 of
the potential ITINs were later reversed and earnings related to the other 11 cases did not have sufficient
earnings to qualify for one quarter of coverage.
6
  Social Security work credits are based on an individual's total annual wages or self-employment income.
An individual can earn up to four credits each year. The amount needed for a credit changes from year to
year. In 2002, for example, an individual earned one credit for each $870 of wages or self-employment
income. When an individual earns $3,480, he or she has earned four credits for the year.



                                                    D-1
                                   Attribute Projection 2
 Sample cases – number of suspended earnings reported under       262
 a potential ITIN with at least one quarter of coverage
 Projection – number of suspended earnings reported under a    297,131
 potential ITIN with at least one quarter of coverage in our
 population
 Projection lower limit                                        288,765
 Projection upper limit                                        303,082
 Estimate – number of suspended earnings reported under a      230,141
 valid IRS ITIN with at least one quarter of coverage in our
 population [297,131 x (213/275)]
We made all projections at the 90-percent confidence level.




                                                  D-2
                                                                               Appendix E

Self-Employment Income Earnings Suspense
File Reinstatements
As of October 2004, the self-employment income (SEI) Reinstatement File contained
approximately 5.4 million earnings items for Tax Years (TY) 1951 to 2002. For
TY 2002, we found that the Social Security Administration (SSA) reinstated
34,961 earnings items from the Earnings Suspense File (ESF) to individuals’ Master
Earnings File (MEF).1 SSA uses a variety of matching routines and other processes to
correct and post many of the earnings items with name and/or Social Security number
(SSN) mismatches or other problems, both before and after items are posted to the
ESF.

As shown in the table, these 34,961 earnings items were reinstated using more than
7 routines and processes. We found that the matching routine called “Prior
Reinstatements” resolved the majority of the earnings items – 10,758 items
representing about 31 percent of the total reinstated earnings items for TY 2002.

                      SSA SEI Reinstatements for Tax Year 2002
                 Reinstatement Process         Income Items Percentage
        Prior Reinstatements                       10,758      31.0%
        Decentralized Correspondence                 8,753     25.0%
        Online Item Correction                       2,917      8.3%
        SWEEP                                          748      2.1%
        Young Children’s Earnings Record               166       .5%
        Earnings After Death                            33       .1%
        Other                                      11,586      33.1%
               Total Reinstated SEI Items          34,961       100%
       Note: Total percent may not equal 100 percent due to rounding.

SSA has taken steps over the past years to reduce the size and growth of the ESF.
Below we discuss some of the various matching routines and correspondences that
SSA uses to reduce the size and growth of the ESF.

Matching Routines

•   SWEEP: SWEEP is an electronic operation that periodically uses SSA’s latest
    system enhancements and validation rules, including the more than 20 routine edits
    used on incoming earnings, to remove items from the ESF and reinstate them to the
    earners’ MEF records.


1
 The MEF contains all earnings data reported by self-employed individuals and employers. These data
are used to calculate the Social Security benefits due an individual with an earnings record.
                                                E-1
•   Item Correction: This process allows SSA staff to correct the earnings record of an
    individual through a system called Earnings Modernization 2.8 (EM 2.8). The EM
    2.8 system is a computerized process for adjusting an individual’s earnings record
    thereby helping SSA establish and maintain an accurate and complete MEF. This
    system allows SSA employees to add, change, move, or delete an individual’s
    earnings overnight via on-line interactive screens. This is a paperless system—with
    proofs and rationale recorded electronically after an initial inspection by an SSA
    employee(s).

•   Future Edits: The Office of Quality Performance plans to modify matching routines
    developed for the wages ESF so they are applicable to the SEI ESF. However,
    since the SEI ESF contains a significant number of items reported under suspected
    ITINs, the new routines’ effectiveness will be reduced.

Correspondence to Self-Employed Individuals

SSA mails out thousands of letters to self-employed individuals each year to resolve
earnings discrepancies. The three main letters sent are (1) Decentralized
Correspondence (DECOR), (2) Earnings After Death (EAD), and (3) Young Children’s
Earnings Record (YCER).

•   DECOR: When SEI earnings reach the ESF, SSA’s system generates notices to
    self-employed individuals. The main purpose of DECOR notices is to query the
    individual to resolve SSN and/or name discrepancies. SSA reviews the returned
    DECOR notices, validates the information provided, and if appropriate, removes the
    earnings from the ESF for posting to the individual’s MEF record (see Appendix H
    for a copy of the notice).2

•   EAD: SSA also has processes in place to detect unusual earnings reports—such as
    instances where earnings relate to someone recorded as deceased on SSA's
    records. Under the EAD process, when a date of death is present on the Numident,
    all earning items reported for TYs after the year of death are placed in the ESF. The
    earnings are also transmitted to an EAD investigate file so that notices can be
    printed and mailed to earners. Responses are returned to SSA for processing.
    Field office staff may interview an individual to verify his or her information.

•   YCER: Another unusual earnings pattern monitored by SSA relates to young
    earners. Under the YCER process, SSA checks the Date of Birth (DoB) for the SSN
    on each earnings report. If a DoB indicates that the numberholder of the SSN is a
    child under the age of 7, the earnings will be recorded in the ESF. A YCER
    investigate file is generated to determine whether the earnings belong to the
    reported SSN.

2
 SSA Office of the Inspector General, Effectiveness of the Social Security Administration's Decentralized
Correspondence Process (A-03-01-11034), July 2002.




                                                   E-2
                                      Appendix F

Application for IRS Individual Taxpayer
Identification Number
                                                                                  Appendix G

Reinstated Earnings Items with Potential
Individual Taxpayer Identification Numbers
We reviewed the self-employment income (SEI) Earnings Suspense File (ESF)
Reinstates File1 to determine whether individuals with potential Individual Taxpayer
Identification Numbers (ITIN)2 later obtained a valid Social Security number (SSN) and
had their earnings reinstated. We reviewed 100 cases where earnings reported under a
potential ITIN3 were later reinstated and found the following characteristics:4

•   95 individuals were born outside the United States;
•   79 individuals worked prior to receiving an SSN from the Social Security
    Administration (SSA);5
•   95 of the earnings items were reinstated using manual processes since the ESF
    issues could not be resolved through SSA’s matching routines;6 and
•   76 of the earnings items were reinstated as a result of Decentralized
    Correspondence (DECOR), indicating that the notices are a useful part of the overall
    reinstatement process (see Appendix H for a copy of the DECOR notice).

We also found that very few of the potential ITINs were later reinstated to an earner’s
record. For example, of the earnings reported in Tax Year 2002 under a potential ITIN,
approximately 1,400 were later reinstated to an earner’s records and about
80,500 earnings items remained unresolved in the SEI ESF. The SEI ESF may contain
additional earnings among individuals who may already have an SSN.




1
  The Reinstates File contains the most recent reinstated earnings items with details on the name and
SSN reported to SSA as well as the corrected name and SSN.
2
  The ITIN is a 9-digit Federal tax processing number issued by the IRS.
3
  We extracted reported SSNs from the SEI ESF Reinstates File for Tax Years (TY) 1951-2002 where the
SSN began with a “9” and had a “7” or an “8” in the fourth digit (example: 9XX-7X-XXXX).
4
  We reviewed these characteristics since they could be consistent with individuals using ITINs to report
their earnings since (1) ITINs are assigned to noncitizens and (2) ITINs could have been used until the
individuals were notified through SSA correspondence that their earnings could not be posted (hence,
they requested an SSN).
5
  We discussed this issue in an August 2005 audit—Reported Earnings Prior to the Issuance of a Social
Security Number (A-03-04-14037).
6
  Manual processes relate to individuals contacting SSA and requesting that their information be updated.
If the problem was a simple transposition error, SSA’s matching routines would be able to correct the
problem without manual intervention.
                                    Appendix H

Decentralized Correspondence for Self-
Employed Individuals




                      H-1
H-2
                                                                          Appendix I

Prior Office of the Inspector General Reports
         Social Security Administration, Office of the Inspector General
                 Reports Related to the Earnings Suspense File
   Common
 Identification                        Report Title                           Date
    Number                                                                   Issued
 A-03-00-10004    Performance Measure Review: Reliability of the Data       May 2001
                  Used to Measure the Accuracy of Earnings Posted

 A-03-01-11034    Effectiveness of the Social Security Administration's     July 2002
                  Decentralized Correspondence Process

 A-03-01-11035    Effectiveness of the Social Security Administration's    August 2002
                  Earnings after Death Process

 A-03-03-23038    Status of the Social Security Administration's          November 2002
                  Earnings Suspense File

 A-15-04-14069    Performance Indicator Audit: Earnings Suspense File      August 2004

 A-03-04-14037    Reported Earnings Prior to the Issuance of a Social      August 2005
                  Security Number
                  Appendix J

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      June 6, 2006                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The Self-Employment Income Earnings
           Suspense File" (A-03-05-25038)—INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        J-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “THE SELF-EMPLOYMENT INCOME EARNINGS SUSPENSE FILE
(ESF)”(A-03-05-25038)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Work with the Internal Revenue Service (IRS) to resolve the inconsistent instructions provided
to non-citizens relative to the appropriate tax identification number to be used for reporting Self-
Employment Contributions Act (SECA) and Medicare taxes.

Comment

We agree. The Social Security Administration (SSA) and the IRS have an established process
for the periodic review of forms and publications that affect both our agencies. In subsequent
review cycles, SSA will emphasize the issue of the Individual Taxpayer Identification Number
(ITIN) and Social Security number (SSN) use in instructions provided for purposes of reporting
SECA and Medicare taxes.

Recommendation 2

Update the language in the self-employment income decentralized correspondence (DECOR)
notice to make it clear to individuals that earnings reported under an ITIN cannot be used for
future SSA benefits unless they are reported under the earners’ valid SSN.

Comment

To be consistent with the current Social Security Act, we recommend the clause following
“…future SSA benefits…” in this recommendation be rewritten to state “…until the individual
obtains a valid SSN.”

Given the pending immigration reform legislation, we will defer any decision to change the
language in the DECOR letter for self-employed individuals.

Recommendation 3

Discuss with the IRS the possibility of obtaining ITIN data in accordance with the SSA/IRS
agreement. The ITIN information could be reviewed to determine whether the addition of this
new information to SSA’s records results in a) a reduction in the size of the self-employment
income Earnings Suspense File (ESF) and/or b) adjustments to SSA benefits.




                                                J-2
Comment

We disagree. We believe that SSA would not benefit from such an endeavor. ITINs are
available from the IRS only for individuals who are not eligible for an SSN. If an individual
does not have an SSN, such ITIN information would be rendered useless because it would be
impossible to remove the individual’s self-employment income (or wages) from the ESF since,
without an SSN, there would be no valid record to which the earnings could be credited.
Alternatively, individuals previously assigned an ITIN who subsequently become eligible for
and obtain an SSN will learn from their annual Social Security Statement that earnings are not
posted to their records and the potential effects on benefits of failing to properly report or to
correct earnings. In addition, the Social Security Statement currently provides instructions on
how to resolve such earnings discrepancies


[In addition to the comments above, SSA provided technical comments which have
been addressed, where appropriate, in this report.]




                                                J-3
                                                                      Appendix K

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Cylinda McCloud-Keal, Audit Manager, (215) 597-0572

Acknowledgments

In addition to those named above:

   Brenda Williams, Auditor-in-Charge

   Richard Devers, IT Specialist

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-05-25038
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging Social
Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
